            OFFICE OF
     THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION

  THE SOCIAL SECURITY ADMINISTRATION’S
COMPLIANCE WITH THE FEDERAL INFORMATION
    SECURITY MANAGEMENT ACT OF 2002
           FOR FISCAL YEAR 2012

    November 2012       A-14-12-12120




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

    Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
      Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

   To ensure objectivity, the IG Act empowers the IG with:

    Independence to determine what reviews to perform.
    Access to all information necessary for the reviews.
    Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
MEMORANDUM

Date:      November 15, 2012                                                            Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   The Social Security Administration’s Compliance with the Federal Information Security
           Management Act of 2002 for Fiscal Year 2012 (A-14-12-12120)


           OBJECTIVE
           Our objective was to determine whether the Social Security Administration’s (SSA)
           overall information security program and practices were effective and consistent with
           the requirements of the Federal Information Security Management Act of 2002 (FISMA)
           as defined by the Department of Homeland Security (DHS).

           BACKGROUND
           FISMA provides the framework for securing the Government’s information and
           information systems. All agencies must implement the FISMA requirements and report
           annually to the Office of Management and Budget (OMB), DHS, and Congress on the
           adequacy and effectiveness of their security programs. FISMA requires that each
           agency develop, document, and implement an agency-wide information security
           program. 1 Each agency head is responsible for providing information security
           protections commensurate with the risk and magnitude of the harm resulting from the
           unauthorized access, use, disclosure, disruption, modification, or destruction of agency
           information and information systems. 2

           FISMA also requires that each agency’s Inspector General (IG), or an independent
           external auditor, perform an independent evaluation of the agency’s information security
           program and practices to determine their effectiveness. 3 Each evaluation shall

           •     test the effectiveness of information security policies, procedures, and practices of a
                 representative subset of the agency’s information systems and

           1
               Pub. L. No. 107-347, Title III, Section 301 § 3544(b); 44 U.S.C. § 3544(b).
           2
               Pub. L. No. 107-347, Title III, Section 301 § 3544(a)(1)(A); 44 U.S.C. § 3544(a)(1)(A).
           3
               Pub. L. No. 107-347, Title III, Section 301 §§ 3545(a)(1) and (b)(1); 44 U.S.C. §§ 3545(a)(1) and (b)(1).
Page 2 - The Commissioner


•     assess compliance with FISMA requirements, and related information security
      policies, procedures, standards, and guidelines. 4

DHS is responsible for overseeing compliance with FISMA and developing analyses to
assist in OMB’s annual report to Congress on Federal agencies’ compliance with
FISMA. 5 To fulfill its responsibilities, DHS provided annual FISMA reporting instructions
for Federal agencies, including IGs. Specifically for IGs, DHS defined 11 FISMA
security program components. For each component, IGs must respond to the following
areas.

1. Has the Agency established an enterprise-wide program consistent with FISMA
   requirements, OMB policy, and applicable National Institute of Standards and
   Technology (NIST) guidance? If yes, besides the improvement opportunities that
   may have been identified by the IG, does the program include the attributes
   identified by DHS?

2. Provide any additional information on the effectiveness of the program.

SCOPE AND METHODOLOGY
We contracted with Grant Thornton, LLP, (GT) to audit SSA’s Fiscal Year (FY) 2012
financial statements. 6 Because of the extensive internal control system review
completed as part of that work, some of our FISMA requirements were incorporated into
GT’s financial statement audit information technology (IT)-related work. This evaluation
included the Federal Information System Controls Audit Manual level reviews of SSA’s
financial-related information systems. GT also performed an “agreed-upon procedures”
engagement using FISMA, OMB, DHS, NIST guidance, the Federal Information System
Controls Audit Manual, and other relevant security laws and regulations. We evaluated
GT’s work and performed additional FISMA testing for this review.

To assess whether SSA met FISMA requirements as defined by DHS, we used DHS
guidance 7 to test the compliance and effectiveness of agencies’ security policies,
procedures and practices. For the 11 FISMA security program component metrics and
our responses to those metrics, see Appendix B, Office of the Inspector General
Response to FY 2012 Inspector General Federal Information Security Management Act
Reporting Metrics.

4
    Pub. L. No. 107-347, Title III, Section 301 §§ 3545(a)(2)(A) and (B); 44 U.S.C. §§ 3545(a)(2)(A) and (B).
5
 OMB, M-10-28, Clarifying Cybersecurity Responsibilities and Activities of the Executive Office of the
President and the Department of Homeland Security (DHS), July 6, 2010, page 2.
6
 Office of the Inspector General Contract Number GS-23F-8196H, December 3, 2009. The FY 2012
option was exercised in December 2011.
7
 DHS, FY 2012 Inspector General Federal Information Security Management Act Reporting Metrics,
March 6, 2012.
Page 3 - The Commissioner


This report informs Congress and the public about SSA’s security performance and
fulfills the OMB and DHS requirements under FISMA to submit an annual report to
Congress. It provides an assessment of SSA’s information security strengths and
weaknesses. See Appendix C for more details on our scope and methodology.

RESULTS OF REVIEW
For FY 2012, we determined that SSA had established an overall information security
program and practices that were generally consistent with FISMA requirements. 8
However, weaknesses in some of the program’s components limited the overall
program’s effectiveness to adequately protect the Agency’s information and information
systems. Specifically, GT identified a material weakness over internal controls in its
Independent Auditor’s Report. We also identified additional weaknesses. Based on our
evaluation of GT’s work and our work, we believe these weaknesses constituted a
significant deficiency under FISMA.

FINANCIAL STATEMENT AUDIT MATERIAL WEAKNESS

In FY 2012, GT identified deficiencies in information security controls that, when
combined, it considered a material weakness. A material weakness for financial
statement purposes is a deficiency, or combination of deficiencies, in internal control,
such that there is a reasonable possibility that a material misstatement of the entity's
financial statements will not be prevented, or detected and corrected timely. 9 As a
result, for FY 2012, GT reported a material weakness in SSA’s internal control over its
financial statements.

GT stated that SSA had attempted to strengthen controls over its systems and address
the outstanding significant deficiency in information security. However, GT’s FY 2012
testing identified the following security weaknesses that, when aggregated, met the
definition of a material weakness for financial statement purposes.

•   Lack of monitoring and policy implementation related to the configuration and
    information content of SSA’s Intranet Webpages. The misconfiguration of some of
    SSA systems allowed GT to obtain security information and personally identifiable



8
 Our conclusion was based on our assessment of SSA’s compliance with DHS’ FY 2012 Inspector
General Federal Information Security Management Act Reporting Metrics, March 6, 2012. As indicated in
Appendix B, we determined that SSA established all 11 security program components, which were
generally consistent with Federal guidance. The 11 components established by SSA included the vast
majority of attributes identified by DHS. However, we also noted improvement opportunities for many
attributes.
9
  The definition of a material weakness for financial statement internal control is provided by the
Statement on Auditing Standards Number 115, Communicating Internal Control-Related Matters
Identified in an Audit.
Page 4 - The Commissioner


      information (PII) 10 from SSA’s Intranet. This issue increases the risk that SSA’s
      sensitive information could be used inappropriately.

•     Lack of controls related to the identification and monitoring of high-risk programs
      operating on the Agency’s mainframe. 11 SSA did not conduct impact assessments
      to determine whether significant changes to its mainframe programs created any
      security implications. In addition, SSA management did not have a comprehensive
      process to periodically review privileged programs added to SSA’s mainframe
      environment. Privileged programs are considered high-risk because they could
      bypass mainframe system security.

•     Insufficient vulnerability testing conducted by the Agency to identify critical
      weaknesses in its IT environment. For the second year in a row, GT was able to
      gain access to restricted information and take control of SSA’s Windows network
      during internal penetration testing. 12 GT reported that management’s failure to
      conduct robust enterprise-focused penetration testing increases the risk that
      unauthorized access may occur and go undetected, allowing privileged information
      or critical infrastructure to be compromised.

•     Lack of a comprehensive profile and access recertification program. GT found that
      SSA developed identity and access management policies and procedures to
      periodically reassess the content of security access profiles. 13 However, the Agency
      had not consistently implemented these policies and procedures. Further, GT’s
      testing identified personnel with inappropriate access.

•     Lack of appropriate controls to prevent unauthorized access to the Agency’s
      production environment. Agency management stated that a control was in place to
      allow programmers highly monitored and time-limited access to production data.
      However, GT identified software programmers with access to SSA’s production data
      that bypassed this control. SSA management indicated this issue resulted from

10
   OMB, M-06-19, Reporting Incidents Involving Personally Identifiable Information and Incorporating the
Cost for Security in Agency Information Technology Investments, July 2006, page 1, defines PII as any
information about an individual maintained by an agency, including, but not limited to, education, financial
transactions, medical history, and criminal or employment history and information that can be used to
distinguish or trace an individual's identity, such as their name, Social Security number, date and place of
birth, mother's maiden name, biometric records, etc., including any other personal information that is
linked or linkable to an individual.
11
   International Business Machines Corp. defines a mainframe as computers that can support thousands
of applications and input/output devices to simultaneously serve thousands of users. A mainframe is the
central data repository, or hub, in a corporation's data processing center, linked to users through less
powerful devices such as workstations or terminals.
12
     GT used a different method to take control of SSA’s Windows network this year.
13
  A profile is one of SSA’s primary access control mechanisms. Each profile contains a unique mix of
facilities and transactions that determines what access to systems resources a specific position needs.
Page 5 - The Commissioner


     human error, and that no current control would have identified this error in a timely
     manner. In addition, GT identified instances where this control was used, but
     access was not timely approved and reviewed. Despite these weaknesses, GT did
     not find any unauthorized changes to the Agency’s data.

WEAKNESSES IN SOME COMPENSATING CONTROLS

GT discussed the security weaknesses it identified with SSA management and staff.
Agency management stated that compensating controls existed to mitigate the risks
created by the security weaknesses. However, GT’s FY 2012 financial statement audit
testing and our audits identified weaknesses in some of the compensating controls
identified by SSA. This included control deficiencies in the Agency’s change control
process and physical and logical access controls. For example, GT noted weaknesses
over the approval and documentation for changes to SSA software applications.
Further, we found that a contractor employee maintained physical access to SSA
facilities for approximately 1 year after the contractor employee was deemed unsuitable
for employment. 14 In addition, we found that a disability determination services’
employee’s system user identification was used after the employee was terminated. 15

ADDITIONAL SECURITY WEAKNESSES

In addition to the security weaknesses identified above, our FY 2012 FISMA testing
identified some security weaknesses related to key components of SSA’s information
security program. These key components include Continuous Monitoring, Configuration
Management, Identity and Access Management, Risk Management, and Contractor
Systems Oversight. In prior years, we have also identified weaknesses in these areas.
We highlight some key weaknesses below.

•    Continuous Monitoring: 16 The Agency had not fully implemented its continuous
     monitoring strategy. For example, SSA had not implemented compliance monitoring
     tools for all of its platforms. 17 Further, SSA needed to assess and validate the
     technical capacity of each continuous monitoring tool to meet NIST requirements.
     Finally, SSA’s continuous monitoring activities did not provide the near real-time
     information required for Agency officials to proactively manage the Agency’s
     information security program in accordance with OMB and NIST requirements.

14
  The contractor employee was immediately removed from the contract after the appropriate SSA
personnel were notified.
15
  Management confirmed that no transactions were executed with the terminated employee’s user
identification after termination.
16
   Continuous Monitoring maintains ongoing awareness of information security, vulnerabilities, and threats
to support organizational risk management decisions.
17
  A platform is a hardware and/or software architecture that serves as a foundation or base. An
operating system, like Windows, is an example of a platform.
Page 6 - The Commissioner


•    Configuration Management: 18 SSA used risk models for its platforms to prescribe
     security settings and manage risk. However, SSA had not documented risk models
     for all of its platforms. Further, the Agency did not perform vulnerability scans of all
     platforms to determine whether prescribed security settings were implemented.
     Moreover, the vulnerability scans and penetration testing performed by GT identified
     a number of security weaknesses.

•    Identity and Access Management: 19 SSA scanned its network to identify connected
     hardware, but as of the date of this review, it had been unable to categorize all types
     of hardware and their associated operating systems.

•    Risk Management: 20 SSA had weaknesses in its security governance structure.
     The Agency’s central technical security component did not have control over
     regional office Intranet Websites. In addition, SSA lacked a centralized process to
     authorize hardware devices before they were connected to the Agency’s network.

•    Contractor Systems Oversight: 21 SSA did not maintain a complete inventory of all
     contractor systems and services and did not ensure all contractor systems and
     services met Federal security requirements. Specifically, we identified seven
     systems and services that met the FISMA criteria for contractor systems but either

18
  From a security point of view, Configuration Management provides assurance that the system in
operation is the correct version (configuration) of the system and that any changes to be made are
reviewed for security implications.
19
  Identity and Access Management includes policies to control user access to information system
objects, including devices, programs, and files. The identification of devices with Internet Protocol
addresses attached to an agency’s network is included under the Identity and Access Management
section of DHS’ FY 2012 Inspector General Federal Information Security Management Act Reporting
Metrics, March 6, 2012.
20
    “Risk Management is the process of managing risks to organizational operations (including mission,
functions, image, reputation), organizational assets, individuals, other organizations, and the Nation,
resulting from the operation of an information system, and includes: (i) the conduct of a risk assessment;
(ii) the implementation of a risk mitigation strategy; and (iii) employment of techniques and procedures for
the continuous monitoring of the security state of the information system.” NIST Special Publication 800-
53, Rev. 3, page B-11.
21
   Agencies are responsible for ensuring that appropriate security controls are in place over contractor
systems used or operated by contractors or other entities (such as other Federal or state agencies) on
behalf of an agency. We used OMB M-12-20, FY 2012 Reporting Instructions for the Federal Information
Security Management Act and Agency Privacy Management, Frequently Asked Questions,
September 27, 2012, pages 15 to 16, to determine the purview of the Agency’s FISMA responsibilities for
contractor systems. SSA disagreed with our interpretation. However, this OMB guidance explicitly
provides that “Because FISMA applies to both information and information systems used by the agency,
contractors, and other organizations and sources, it has somewhat broader applicability than prior
security law. That is, agency information security programs apply to all organizations (sources) which
process, store, or transmit Federal information- or which operate, use, or have access to Federal
information systems (whether automated or manual) -on behalf of a Federal agency.” OMB, M-12-20 at
page 16.
Page 7 - The Commissioner


     were not included in the Agency’s systems inventory or were not identified as a
     contractor system or service, as required by FISMA guidance. Further, some of
     SSA’s contracts did not include Federal security requirements, as required by
     FISMA guidance.

FISMA SIGNIFICANT DEFICIENCY

OMB defines a FISMA significant deficiency as “. . . a weakness in an agency’s overall
information systems security program or management control structure, or within one or
more information systems, that significantly restricts the capability of the agency to carry
out its mission or compromises the security of its information, information
systems, personnel, or other resources, operations, or assets. In this context, the
risk is great enough that the agency head and outside agencies must be notified and
immediate or near-immediate corrective action must be taken.” 22

SSA administers two of the nation’s largest entitlement programs, the Old-Age,
Survivors, and Disability insurance program and the Supplemental Security Income
program. These programs touch the lives of virtually every American. It is imperative
that SSA protect these programs by ensuring the safety and security of its information
systems and the data contained in them.

Based on our evaluation of the work performed by GT and the results of our additional
FISMA work, we concluded that the risk and severity of SSA’s information security
weaknesses were great enough to constitute a significant deficiency under FISMA.
These weaknesses could result in losses of confidentiality, integrity, and availability of
SSA information systems and data. 23 Given the complex systems and magnitude of
sensitive information housed on SSA’s systems, any loss of confidentiality, integrity, or
availability of Agency systems or data could have a significant impact on the public and
the nation’s economy. For example, during its internal penetration testing, GT was able
to take control of SSA’s Windows network and obtain many records containing PII. In
addition, GT noted concerns related to the identification and monitoring of high risk
programs operating on the mainframe. Without performing specific assessments of the
impact of program changes to the system security framework, there is an increased risk
that the security posture and controls may be bypassed or compromised. Finally, GT
identified programmers with access to production data that bypassed SSA’s process to
monitor and limit such access. Specifically, GT identified programmers with



22
  OMB, M-12-20, FY 2012 Reporting Instructions for the Federal Information Security Management Act
and Agency Privacy Management, Frequently Asked Questions, September 27, 2012, page 26.
23
   Confidentiality means preserving authorized restrictions on access and disclosure, including means
for protecting personal privacy and proprietary information. Integrity means guarding against improper
information modification or destruction, and includes ensuring information nonrepudiation and
authenticity. Availability means ensuring timely and reliable access to and use of information. Pub. L.
No. 107-347, Title III, Section 301 § 3542(b)(1)(A) to (C), 44 U.S.C. § 3542(b)(1)(A) to (C).
Page 8 - The Commissioner


unmonitored access to production data for a benefit application. This issue increases
the risk that programmers could make unauthorized changes to the production
environment without detection.

The security deficiencies identified above, when aggregated, created a weakness in
SSA’s overall information systems security program that, in our opinion, significantly
compromised the security of its information and information systems. We also believe
that the risk was great enough that the agency head and outside agencies must be
notified and immediate or near-immediate corrective action must be taken. 24

UNDERLYING CAUSES FOR SSA’s FINANCIAL STATEMENT AUDIT MATERIAL
WEAKNESS AND FISMA SIGNIFICANT DEFICIENCY

Based on our testing and evaluation of GT’s work, we believe the following items
caused the Agency’s material weakness and FISMA significant deficiency.

1. SSA had not fully implemented a comprehensive and robust continuous monitoring
   program based on a sound configuration management program. Without a robust
   continuous monitoring program that includes integrated and operating continuous
   monitoring tools and the capacity to report SSA’s security state to appropriate
   Agency officials, the Agency had a limited ability to make timely risk management
   decisions.
2. SSA had a decentralized governance structure for IT security. This resulted in a
   system misconfiguration that enabled GT, without detection, to obtain PII and take
   control of SSA’s Windows network.
3. SSA needed to strategically allocate sufficient resources to resolve or prevent high-
   risk security weaknesses more timely. This includes the use of more effective
   security testing methods, such as broad penetration testing techniques.

AGENCY EFFORTS TO RESOLVE SECURITY WEAKNESSES

It should be noted that SSA took action to address some of its security weaknesses
identified by GT and us:

Lack of monitoring and policy implementation related to the configuration and
information content of SSA’s Intranet Webpages. SSA stated it was conducting a Web
vulnerability assessment. In addition, the Agency stated it had purchased and was
deploying a data loss protection tool.




24
  Significant deficiencies identified under FISMA must be reported as material weaknesses in the annual
Federal Managers’ Financial Integrity Act of 1982 report. OMB Circular A-123 Revised, Management’s
Responsibility for Internal Control, Section IV B, December 21, 2004.
Page 9 - The Commissioner


Lack of controls related to the identification and monitoring of high-risk programs
operating on the Agency’s mainframe. The Agency removed one high-risk privileged
program identified by GT. Furthermore, SSA stated it was expanding its review process
to include all mainframe privileged programs.

Insufficient vulnerability testing conducted by the Agency to identify critical weaknesses
in its IT environment. SSA documentation indicated that over the past 10 years, the
Agency has performed some penetration testing. Between 2009 and 2011, SSA used
some of the funding traditionally used for penetration testing for other information
security purposes. However, SSA stated that in 2012, it began performing penetration
testing with an open and dynamic scope. The Agency hired three contractor employees
in September 2012 to perform targeted internal penetration testing to identify security
weaknesses of SSA’s networks.

Lack of a comprehensive profile and access recertification program. In FY 2011, SSA
issued two policies governing security profiles. 25 In addition, the Agency assembled a
workgroup to address its access control weaknesses. The workgroup tested a
commercial tool to manage the profile review process for SSA employee and contractor
access. The Agency began using the tool in FY 2012. SSA planned to remediate some
access control issues by fully implementing its profile and access recertification program
in early FY 2013.

Lack of appropriate controls to prevent unauthorized access to the Agency’s production
environment. SSA management stated that the Agency removed the access of the
programmers identified in GT’s testing. Moreover, the Agency stated its triennial access
recertification will identify these issues in the future, and SSA was exploring options to
alert the Agency if programmers gain access to the production environment.

Continuous monitoring strategy not fully implemented. SSA developed a continuous
monitoring strategy, but the strategy had not been fully implemented. SSA discussed its
preliminary plan to implement its continuous monitoring strategy with us. To build upon
its continuous monitoring strategy, SSA has been evaluating the ability of its continuous
monitoring tools to ensure compliance with Federal requirements and Agency policies
and procedures. Further, SSA management stated that after the continuous monitoring
tool evaluations are completed, it will have a better idea of the timeframe needed to fully
implement its continuous monitoring strategy. The Agency plans to complete the
continuous monitoring tool evaluations by the end of calendar year 2012. Finally, SSA
is evaluating which security deficiencies identified by GT could be resolved by fully
implementing its continuous monitoring strategy.




25
 SSA, Security Profile Administration Processes Final Mainframe Administration Standards,
May 10, 2011, and SSA, Security Profile Administration Processes Profile Naming Conventions,
October 28, 2010.
Page 10 - The Commissioner


CONCLUSION AND RECOMMENDATIONS
For FY 2012, we determined that SSA’s overall information security program and
practices were generally consistent with FISMA requirements. However, weaknesses in
some components of the program limited the overall program’s effectiveness to
adequately protect the Agency’s information and information systems. We noted that
GT reported a material weakness over SSA’s internal controls for the Agency’s financial
statement audit. After considering this material weakness, its underlying causes, and
the results of our FISMA-related work, we concluded that the risk and severity of SSA’s
information security weaknesses were great enough to constitute a significant
deficiency under FISMA.

SSA needed to effectively protect its mission-critical assets. Without appropriate
security, the Agency’s systems and the sensitive data they contain are at risk. Some
weaknesses identified in this report could cause the Agency’s systems and data to lose
confidentiality, integrity, and availability to some degree. Given the complex systems
and magnitude of sensitive information housed on SSA’s systems, any loss of the
confidentiality, integrity, or availability of Agency systems or data could have a
significant impact on the public.

To improve the effectiveness of SSA’s overall information security program and to
address the material weakness, GT recommended that SSA management consider
implementing:

•   Monitoring controls designed to identify configurations in the SSA network and
    systems environment that do not comply with the SSA system configuration policy.
    In addition, management should consider implementing controls to identify and track
    content on SSA’s Intranet Webpages that may pose a risk to the security of SSA
    systems or the confidentiality of SSA data.
•   A comprehensive program to identify and monitor high-risk programs operating on
    the mainframe. Consider including the identification of programs that may pose
    security risks to the SSA mainframe before they are loaded onto the production
    environment.
•   Comprehensive enterprise-wide security vulnerability testing, including simulated
    penetration attacks, to identify critical weaknesses in the IT environment that may
    not be identified by the current control processes.
•   A comprehensive profile and access recertification program.
•   Additional controls to prevent unauthorized programmer access to the production
    environment.

We reiterate GT’s recommendations and believe these recommendations address the
financial statement audit material weakness and FISMA significant deficiency. In
addition, our prior FISMA reports identified issues related to SSA’s (1) continuous
monitoring, (2) configuration management, (3) identity and access management, (4) risk
Page 11 - The Commissioner


management, and (5) contractor systems oversight. We affirm our prior
recommendations in these areas and encourage the Agency to continue implementing
them.




                                     Patrick P. O’Carroll, Jr.
                                      Appendices
APPENDIX A – Acronyms
APPENDIX B – Office of the Inspector General Response to FY 2012 Inspector General
             Federal Information Security Management Act Reporting Metrics
APPENDIX C – Scope and Methodology
APPENDIX D – The Social Security Administration’s Major Systems
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                               Appendix A

Acronyms
DHS           Department of Homeland Security
FISMA         Federal Information Security Management Act of 2002
FY            Fiscal Year
GT            Grant Thornton LLP
IG            Inspector General
IT            Information Technology
NIST          National Institute of Standards and Technology
OMB           Office of Management and Budget
PII           Personally Identifiable Information
Pub. L. No.   Public Law Number
SSA           Social Security Administration
U.S.C.        United States Code
                                                                                   Appendix B

Office of the Inspector General Response to
FY 2012 Inspector General Federal Information
Security Management Act Reporting Metrics1
    Section 1: CONTINUOUS MONITORING MANAGEMENT


1.1.    Has the Organization established an enterprise-wide continuous
        monitoring program that assesses the security state of information
        systems that is consistent with FISMA requirements, OMB policy, and
        applicable NIST guidelines?
        Yes
        If yes, besides the improvement opportunities that may have been
        identified by the OIG, does the program include the following attributes:

        1.1.1. Documented policies and procedures for continuous monitoring.
                Yes
        1.1.2. Documented strategy and plans for continuous monitoring.
                Yes
        1.1.3. Ongoing assessments of security controls (system-specific, hybrid,
               and common) that have been performed based on the approved
               continuous monitoring plans.
                Yes
                Comments: To date, SSA had not fully implemented its continuous
                monitoring program. For example, the Agency had not developed
                risk models for some of the hardware and software connected to its
                network. Therefore, the Agency did not continually monitor these
                operating system platforms and applications.
        1.1.4. Provides authorizing officials and other key system officials with
               security status reports covering updates to security plans and
               security assessment reports, as well as POA&M additions and
               updates with the frequency defined in the strategy and/or plans.
1
  Department of Homeland Security (DHS), FY 2012 Inspector General Federal Information Security
Management Act Reporting Metrics, March 6, 2012. We extracted the DHS metrics as they were written
in the document without editing, except for the citations to Federal guidance at the end of some metrics
that we omitted for consistency.




                                                    B-1
             Yes
             Comments: SSA’s current continuous monitoring could not provide
             a comprehensive view and near real-time information of the
             enterprise.
1.2.   Please provide any additional information on the effectiveness of the
       Organization’s Continuous Monitoring Management Program that was not
       noted in the questions above.
       Comments: SSA did have a continuous monitoring strategy, but it had not
       been fully implemented. For example, SSA had identified, evaluated, and
       implemented, some continuous monitoring tools for its operating
       environment. However, the Agency needed additional time to ensure the
       continuous monitoring tools were fully operable within its information
       system environment. Consequently, SSA’s continuous monitoring
       program could not provide a comprehensive view and near real-time
       information of the enterprise.

       Weaknesses identified in this area contributed to a financial statement
       audit material weakness identified by Grant Thornton, LLP (GT). Based on
       our work and evaluation of GT’s work, we concluded that SSA had a FISMA
       significant deficiency.

 Section 2: CONFIGURATION MANAGEMENT


2.1.   Has the Organization established a security configuration management
       program that is consistent with FISMA requirements, OMB policy, and
       applicable NIST guidelines?
       Yes
       If yes, besides the improvement opportunities that may have been
       identified by the OIG, does the program include the following attributes:

       2.1.1. Documented policies and procedures for configuration management.
             Yes
       2.1.2. Standard baseline configurations defined.
             Yes
             Comments: The Agency had established baseline configurations for
             many, but not all, computer platforms.
       2.1.3. Assessing for compliance with baseline configurations.
             Yes
             Comments: We identified security weaknesses in the configuration
             settings of some SSA computer platforms. Internal penetration


                                         B-2
      testers were able to obtain security information and personally
      identifiable information because some of SSA’s systems were
      misconfigured. SSA had taken corrective action to address these
      issues.
2.1.4. Process for timely, as specified in Organization policy or standards,
       remediation of scan result deviations.
      Yes
2.1.5. For Windows-based components, FDCC/USGCB secure
       configuration settings fully implemented and any deviations from
       FDCC/USGCB baseline settings fully documented.
      Yes
2.1.6. Documented proposed or actual changes to hardware and software
       configurations.
      Yes
      Comments: SSA monitored the hardware devices connected to its
      network to determine whether they complied with approved risk
      models and configuration settings. However, the Agency did not
      conduct impact assessments to determine the security implications
      for system changes. In addition, management did not have a
      formally documented process to periodically review the privileged
      programs added to the Agency’s mainframe environment to ensure
      that all privileged programs are approved, cannot be improperly
      modified, and are safe. We also identified discrepancies in the
      approval and documentation of changes to SSA applications.
2.1.7. Process for timely and secure installation of software patches.
      Yes
2.1.8. Software assessing (scanning) capabilities are fully implemented.
      No
      Comments: The Agency had implemented scanning procedures for
      some, but not all, platforms. SSA did not have a formal process in
      place for managing or obtaining a comprehensive list of approved
      software for all devices. However, the Agency had made efforts to
      develop this process.
2.1.9. Configuration-related vulnerabilities, including scan findings, have
       been remediated in a timely manner, as specified in Organization
       policy or standards.
      Yes
      Comments: Annual vulnerability scans and penetration testing have
      consistently identified security weaknesses. However, some
      security weaknesses were fully or partially remediated during the


                                   B-3
               audit period. Since the Agency does not have risk models for all
               computer platforms, some configuration-related vulnerabilities went
               unidentified.
         2.1.10. Patch management process is fully developed, as specified in
                Organization policy or standards.
               Yes
2.2.     Please provide any additional information on the effectiveness of the
         Organization’s Configuration Management Program that was not noted in
         the questions above.
         Comments: Weaknesses identified in this area contributed to a financial
         statement audit material weakness identified by GT. Based on our work
         and evaluation of GT’s work, we concluded that SSA had a FISMA
         significant deficiency.

 Section 3: IDENTITY AND ACCESS MANAGEMENT


3.1. Has the Organization established an identity and access management
    program that is consistent with FISMA requirements, OMB policy, and
    applicable NIST guidelines and identifies users and network devices?
       Yes
       If yes, besides the improvement opportunities that have been identified by the
       OIG, does the program include the following attributes:

         3.1.1. Documented policies and procedures for account and identity
                management.
               Yes
         3.1.2. Identifies all users, including federal employees, contractors, and
                others who access Organization systems.
               Yes
         3.1.3. Identifies when special access requirements (e.g., multi-factor
                authentication) are necessary.
               Yes
               Comments: We identified programmers with access to production
               data that bypassed SSA’s process to monitor and limit such access.
         3.1.4. If multi-factor authentication is in use, it is linked to the
                Organization’s PIV program where appropriate.
               Yes
         3.1.5. Organization has adequately planned for implementation of PIV for
                logical access in accordance with government policies.


                                               B-4
      Yes
3.1.6. Ensures that the users are granted access based on needs and
       separation of duties principles.
      Yes
      Comments: Although SSA had an extensive access control
      program, internal penetration testers were able to take control of
      SSA’s Windows network. Testing also identified personnel with
      inappropriate access and programmers with access to production
      data that bypassed SSA’s process to monitor and limit such access.
      The Agency had not consistently implemented policies and
      procedures to periodically reassess the content of security access
      profiles. SSA was working to improve its profile and access
      recertification program and planned for a full implementation in
      Fiscal Year (FY) 2013.
3.1.7. Identifies devices with IP addresses that are attached to the network
       and distinguishes these devices from users. (For example: IP
       phones, faxes, printers are examples of devices attached to the
       network that are distinguishable from desktops, laptops or servers
       that have user accounts)
      Yes
      Comments: Although SSA scanned its network to identify hardware
      devices connected to it, the Agency had been unable to categorize
      all hardware devices and their associated operating systems
      connected to its network. Further, SSA did not have an automated
      capability to determine whether hardware devices connected to its
      network were authorized.
3.1.8. Identifies all User and Non-User Accounts (refers to user accounts
       that are on a system. Examples of non-user accounts are accounts
       such as an IP that is set up for printing. Data user accounts are
       created to pull generic information from a database or a
       guest/anonymous account for generic login purposes that are not
       associated with a single user or a specific group of users)
      Yes
3.1.9. Ensures that accounts are terminated or deactivated once access is
        no longer required.
      Yes
      Comments: Although SSA had policies and procedures to terminate
      access when it is no longer needed, we identified instances where
      physical and logical access was not removed timely.




                                   B-5
         3.1.10. Identifies and controls use of shared accounts.
               Yes
3.2.     Please provide any additional information on the effectiveness of the
         Organization’s Identity and Access Management Program that was not
         noted in the questions above.
         Comments: Weaknesses identified in this area contributed to a financial
         statement audit material weakness identified by GT. Based on our work
         and evaluation of GT’s work, we concluded that SSA had a FISMA
         significant deficiency.

 Section 4: INCIDENT RESPONSE AND REPORTING


4.1. Has the Organization established an incident response and reporting
    program that is consistent with FISMA requirements, OMB policy, and
    applicable NIST guidelines?
       Yes
       If yes, besides the improvement opportunities that may have been identified
       by the OIG, does the program include the following attributes:

         4.1.1. Documented policies and procedures for detecting, responding to
                and reporting incidents.
               Yes
         4.1.2. Comprehensive analysis, validation and documentation of incidents.
               Yes
         4.1.3. When applicable, reports to US-CERT within established timeframes.
               Yes
         4.1.4. When applicable, reports to law enforcement within established
                timeframes.
               Yes
               Comments: SSA reported incidents to OIG in a timely manner. The
               Agency did not have an established timeframe for reporting
               incidents to external law enforcement or the Federal Protective
               Services. SSA identified incidents reported to external law
               enforcement or the Federal Protective Services; however, the
               Agency did not provide police reports for sampled incidents.
         4.1.5. Responds to and resolves incidents in a timely manner, as specified
                in Organization policy or standards, to minimize further damage.
               Yes



                                           B-6
         4.1.6. Is capable of tracking and managing risks in a virtual/cloud
                environment, if applicable.
               Yes
         4.1.7. Is capable of correlating incidents.
               Yes
         4.1.8. There is sufficient incident monitoring and detection coverage in
                accordance with government policies.
               Yes
4.2.     Please provide any additional information on the effectiveness of the
         Organization’s Incident Management Program that was not noted in the
         questions above.
         N/A

 Section 5: RISK MANAGEMENT

5.1. Has the Organization established a risk management program that is
    consistent with FISMA requirements, OMB policy, and applicable NIST
    guidelines?
       Yes
       If yes, besides the improvement opportunities that may have been identified
       by the OIG, does the program include the following attributes:

         5.1.1. Documented and centrally accessible policies and procedures for
                risk management, including descriptions of the roles and
                responsibilities of participants in this process.
               Yes
         5.1.2. Addresses risk from an organization perspective with the
                development of a comprehensive governance structure and
                organization-wide risk management strategy as described in NIST
                800-37, Rev.1
               Yes
               Comments: SSA had a decentralized governance structure for IT
               security. This resulted in a system misconfiguration going
               undetected, enabling GT to obtain security and personally
               identifiable information. In addition, SSA lacked a centralized
               process to authorize hardware devices before they were connected
               to the Agency’s network.




                                             B-7
 5.1.3. Addresses risk from a mission and business process perspective
        and is guided by the risk decisions at the organizational perspective,
        as described in NIST 800-37, Rev.1.
       Yes
 5.1.4. Addresses risk from an information system perspective and is
        guided by the risk decisions at the organizational perspective and
        the mission and business perspective, as described in NIST 800-37,
        Rev. 1.
       Yes
 5.1.5. Categorizes information systems in accordance with government
       policies.
       Yes
 5.1.6. Selects an appropriately tailored set of baseline security controls.
       Yes
 5.1.7. Implements the tailored set of baseline security controls and
        describes how the controls are employed within the information
        system and its environment of operation.
       Yes
 5.1.8. Assesses the security controls using appropriate assessment
        procedures to determine the extent to which the controls are
        implemented correctly, operating as intended, and producing the
        desired outcome with respect to meeting the security requirements
        for the system.
       Yes
       Comments: Financial statement audit testing found that SSA’s
       vulnerability testing was insufficient.
 5.1.9. Authorizes information system operation based on a determination
        of the risk to organizational operations and assets, individuals, other
        organizations, and the Nation resulting from the operation of the
        information system and the decision that this risk is acceptable.
       Yes
5.1.10. Ensures information security controls are monitored on an ongoing
        basis including assessing control effectiveness, documenting
        changes to the system or its environment of operation, conducting
        security impact analyses of the associated changes, and reporting
        the security state of the system to designated organizational
        officials.
       Yes



                                    B-8
              Comments: SSA performed security authorizations and annual
              security testing of selected controls. However, SSA’s continuous
              monitoring program was not fully implemented. See comment for
              Metric 1.2.
       5.1.11. Information system specific risks (tactical), mission/business
               specific risks and organizational level (strategic) risks are
               communicated to appropriate levels of the organization.
              Yes
       5.1.12. Senior Officials are briefed on threat activity on a regular basis by
               appropriate personnel. (e.g., CISO).
              Yes
       5.1.13. Prescribes the active involvement of information system owners and
               common control providers, chief information officers, senior
               information security officers, authorizing officials, and other roles as
               applicable in the ongoing management of information system-related
               security risks.
              Yes
       5.1.14. Security authorization package contains system security plan,
               security assessment report, and POA&M in accordance with
               government policies.
              Yes
       5.1.15. Security authorization package contains Accreditation boundaries
               for Organization information systems defined in accordance with
               government policies.
              Yes
5.2.    Please provide any additional information on the effectiveness of the
        Organization’s Risk Management Program that was not noted in the
        questions above.
        Comments: Weaknesses identified in this area contributed to a financial
        statement audit material weakness identified by GT. Based on our work
        and evaluation of GT’s work, we concluded that SSA had a FISMA
        significant deficiency.




                                            B-9
 Section 6: SECURITY TRAINING


6.1. Has the Organization established a security training program that is
    consistent with FISMA requirements, OMB policy, and applicable NIST
    guidelines?
       Yes
       If yes, besides the improvement opportunities that may have been identified
       by the OIG, does the program include the following attributes:

         6.1.1. Documented policies and procedures for security awareness
                training.
               Yes
         6.1.2. Documented policies and procedures for specialized training for
                users with significant information security responsibilities.
               Yes
         6.1.3. Security training content based on the organization and roles, as
                specified in Organization policy or standards.
               Yes
         6.1.4. Identification and tracking of the status of security awareness
                training for all personnel (including employees, contractors, and
                other Organization users) with access privileges that require security
                awareness training.
               Yes
         6.1.5. Identification and tracking of the status of specialized training for all
                personnel (including employees, contractors, and other Organization
                users) with significant information security responsibilities that
                require specialized training.
               Yes
         6.1.6. Training material for security awareness training contains
                appropriate content for the Organization.
               Yes
6.2.     Please provide any additional information on the effectiveness of the
         Organization’s Security Training Program that was not noted in the
         questions above.
         N/A




                                            B-10
Section 7: PLAN OF ACTION & MILESTONES (POA&M)


7.1. Has the Organization established a POA&M program that is consistent with
    FISMA requirements, OMB policy, and applicable NIST guidelines and tracks
    and monitors known information security weaknesses?
   Yes
   If yes, besides the improvement opportunities that may have been identified
   by the OIG, does the program include the following attributes:

      7.1.1. Documented policies and procedures for managing IT security
             weaknesses discovered during security control assessments and
             requiring remediation.
            Yes
            Comments: SSA’s policy needed to be updated to reflect the current
            tools used to monitor and track security weaknesses.
      7.1.2. Tracks, prioritizes and remediates weaknesses.
            Yes
            Comments: We found some IT security risks that were tracked, but
            not prioritized.
      7.1.3. Ensures remediation plans are effective for correcting weaknesses.
            Yes
      7.1.4. Establishes and adheres to milestone remediation dates.
            Yes
            Comments: We noted several POA&Ms that did not include a
            scheduled completion date.
      7.1.5. Ensures resources are provided for correcting weaknesses.
            Yes
      7.1.6. POA&Ms include security weaknesses discovered during
             assessments of security controls and requiring remediation. (Do not
             need to include security weakness due to a Risk Based Decision to
             not implement a security control).
            Yes
      7.1.7. Costs associated with remediating weaknesses are identified.
            Yes
      7.1.8. Program officials and contractors report progress on remediation to
             CIO on a regular basis, at least quarterly, and the CIO centrally



                                       B-11
               tracks, maintains, and independently reviews/validates the POA&M
               activities at least quarterly.
               Yes
7.2.     Please provide any additional information on the effectiveness of the
         Organization’s POA&M Program that was not noted in the questions above.
         N/A

 Section 8: REMOTE ACCESS MANAGEMENT


8.1. Has the Organization established a remote access program that is consistent
    with FISMA requirements, OMB policy, and applicable NIST guidelines?
       Yes
       If yes, besides the improvement opportunities that may have been identified
       by the OIG, does the program include the following attributes:

         8.1.1. Documented policies and procedures for authorizing, monitoring,
                and controlling all methods of remote access.
               Yes
         8.1.2. Protects against unauthorized connections or subversion of
                authorized connections.
               Yes
         8.1.3. Users are uniquely identified and authenticated for all access.
               Yes
         8.1.4. Telecommuting policy is fully developed.
               Yes
               Comments: SSA’s revised telework policy was in draft form,
               pending the resolution of administrative matters.
         8.1.5. If applicable, multi-factor authentication is required for remote
                access.
               Yes
         8.1.6. Authentication mechanisms meet NIST Special Publication 800-63
                guidance on remote electronic authentication, including strength
                mechanisms.
               Yes
         8.1.7. Defines and implements encryption requirements for information
                transmitted across public networks.
               Yes


                                            B-12
         8.1.8. Remote access sessions, in accordance to OMB M-07-16, are timed-
                out after 30 minutes of inactivity after which re-authentication are
                required.
               Yes
               Comments: SSA exceeded best practice since its sessions time-out
               after 15 minutes of inactivity.
         8.1.9. Lost or stolen devices are disabled and appropriately reported.
               Yes
         8.1.10. Remote access rules of behavior are adequate in accordance with
                government policies.
               Yes
         8.1.11. Remote access user agreements are adequate in accordance with
                government policies.
               Yes
8.2.     Please provide any additional information on the effectiveness of the
         Organization’s Remote Access Management that was not noted in the
         questions above.
         N/A

 Section 9: CONTINGENCY PLANNING


9.1. Has the Organization established an enterprise-wide business
    continuity/disaster recovery program that is consistent with FISMA
    requirements, OMB policy, and applicable NIST guidelines?
       Yes
       If yes, besides the improvement opportunities that may have been identified
       by the OIG, does the program include the following attributes:

         9.1.1. Documented business continuity and disaster recovery policy
                providing the authority and guidance necessary to reduce the impact
                of a disruptive event or disaster.
               Yes
         9.1.2. The Organization has performed an overall Business Impact Analysis
                (BIA).
               Yes
         9.1.3. Development and documentation of division, component, and IT
                infrastructure recovery strategies, plans and procedures.
               Yes


                                           B-13
       9.1.4. Testing of system specific contingency plans.
             Yes
             Comments: The Agency did not conduct contingency plan testing
             for 2 of the 21 major systems/applications. For one of the
             applications, the application owners were not aware of the annual
             testing requirement. For the other application, the application
             owners were working with the appropriate subject matter experts to
             integrate their application into SSA’s disaster recovery exercise.
       9.1.5. The documented business continuity and disaster recovery plans are
              in place and can be implemented when necessary.
             Yes
       9.1.6. Development and fully implementable of test, training, and exercise
               (TT&E) programs.
             Yes
       9.1.7. Performance of regular ongoing testing or exercising of business
              continuity/disaster recovery plans to determine effectiveness and to
              maintain current plans.
             Yes
       9.1.8. After-action report that addresses issues identified during
              contingency/disaster recovery exercises.
             Yes
       9.1.9. Systems that have alternate processing sites.
             Yes
       9.1.10. Alternate processing sites are subject to the same risks as primary
              sites.
             Yes
       9.1.11. Backups of information that are performed in a timely manner.
             Yes
       9.1.12. Contingency planning that consider supply chain threats.
             Yes
             Comments: SSA’s two data centers will back up each other. SSA
             considered supply chain threats for one data center, but not the
             other.
9.2.   Please provide any additional information on the effectiveness of the
       Organization’s Contingency Planning Program that was not noted in the
       questions above.
       N/A



                                         B-14
Section 10: CONTRACTOR SYSTEMS


10.1. Has the Organization established a program to oversee systems operated
      on its behalf by contractors or other entities, including Organization
      systems and services residing in the cloud external to the Organization?
    Yes
    If yes, besides the improvement opportunities that may have been identified
    by the OIG, does the program includes the following attributes:

      10.1.1. Documented policies and procedures for information security
              oversight of systems operated on the Organization’s behalf by
              contractors or other entities, including Organization systems and
              services residing in public cloud.
             Yes
      10.1.2. The Organization obtains sufficient assurance that security controls
              of such systems and services are effectively implemented and
              comply with federal and Organization guidelines.
             Yes
             Comments: For 12 of 17 contractor systems identified by our
             testing, SSA either performed a security authorization or obtained
             documentation of the systems’ compliance with Federal security
             guidelines. Three of the contractor systems were operated or
             owned by other Federal or State agencies. One was operated by a
             contractor whose services were used by many Federal agencies.
             SSA believed it was not responsible for performing a security
             authorization of this contractor system. The remaining contractor
             system was a Website, located in a public cloud, but did not have
             the proper security authorization. However, the Website contained
             non-sensitive, public information, and a link that redirected users to
             SSA’s secure Website to report fraud allegations.
      10.1.3. A complete inventory of systems operated on the Organization's
              behalf by contractors or other entities, including Organization
              systems and services residing in public cloud.
             No
             Comments: We found seven contractor systems that SSA had not
             identified on its inventory list.
      10.1.4. The inventory identifies interfaces between these systems and
              Organization-operated systems.
             Yes




                                        B-15
      10.1.5. The Organization requires appropriate agreements (e.g., MOUs,
              Interconnection Security Agreements, contracts, etc.) for interfaces
              between these systems and those that it owns and operates.
             Yes
      10.1.6. The inventory of contractor systems is updated at least annually.
              Yes
      10.1.7. Systems that are owned or operated by contractors or entities,
              including Organization systems and services residing in public
              cloud, are compliant with FISMA requirements, OMB policy, and
              applicable NIST guidelines.
              Yes
              Comments: See comments for Metric 10.1.2.
10.2. Please provide any additional information on the effectiveness of the
      Organization’s Contractor Systems Program that was not noted in the
      questions above.
      Comments: We found some IT-related contracts did not contain the proper
      FISMA security clause requirements.

Section 11: SECURITY CAPITAL PLANNING


11.1. Has the Organization established a security capital planning and investment
     program for information security?
    Yes
    If yes, besides the improvement opportunities that may have been identified
    by the OIG, does the program include the following attributes:

      11.1.1. Documented policies and procedures to address information
              security in the capital planning and investment control (CPIC)
              process.
             Yes
      11.1.2. Includes information security requirements as part of the capital
              planning and investment process.
             Yes
      11.1.3. Establishes a discrete line item for information security in
              organizational programming and documentation.
             Yes
      11.1.4. Employs a business case/Exhibit 300/Exhibit 53 to record the
              information security resources required.


                                         B-16
             Yes
             Comments: We identified inconsistencies in the supporting
             documents for some line items in Exhibit 53B. For example, some
             Exhibit 53B numbers were based on budget estimates rather than
             budget decisions.
      11.1.5. Ensures that information security resources are available for
              expenditure as planned.
             Yes
11.2. Please provide any additional information on the effectiveness of the
      Organization’s Security Capital Planning Program that was not noted in the
      questions above.
      N/A




                                        B-17
                                                                               Appendix C

Scope and Methodology
The Federal Information Security Management Act of 2002 (FISMA) directs each
agency’s Inspector General to perform, or have an independent external auditor
perform, an annual independent evaluation of the agency’s information security
programs and practices, as well as a review of an appropriate subset of agency
systems. We contracted with Grant Thornton LLP (GT) to audit the Social Security
Administration’s (SSA) Fiscal Year (FY) 2012 financial statements. Because of the
extensive internal control system work that is completed as part of that audit, our FISMA
review requirements were incorporated into the GT financial statement audit contract.
This evaluation included the Federal Information System Controls Audit Manual level
reviews of SSA’s financial-related information systems. GT also performed an “agreed-
upon procedures” engagement using FISMA; Department of Homeland Security (DHS)
Federal Information Security Memorandum 12-02, FY 2012 Reporting Instructions for
the Federal Information Security Management Act and Agency Privacy Management;
National Institute of Standards and Technology guidance; the Federal Information
System Controls Audit Manual; and other relevant security laws and regulations as a
framework to complete the Inspector General-required review of SSA’s information
security program and practices and its information systems.

The results of our FISMA review are based on our evaluation of GT’s FY 2012 financial
statement audit and agreed-upon procedures work papers as well as various audits by
our office. We also reviewed SSA’s draft 2012 FISMA Chief Information Officer Section
Report.

Our evaluation followed the DHS FY 2012 FISMA guidance 1 and focused on Risk
Management, Configuration Management, Incident Response and Reporting, Security
Training, Plan of Action and Milestones, Remote Access Management, Identity and
Access Management, Continuous Monitoring Management, Contingency Planning,
Contractor Systems, and Security Capital Planning.

We performed field work at SSA facilities nationwide from April to October 2012. We
considered the results of our other audits performed in FY 2012. We conducted this
performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe the evidence obtained provides
a reasonable basis for our findings and conclusions based on our audit objectives.


1
  DHS Federal Information Security Memorandum 12-02, FY 2012 Reporting Instructions for the Federal
Information Security Management Act and Agency Privacy Management, February 15, 2012.
                                                                                     Appendix D

The Social Security Administration’s Major
Systems
                                  System                                             Acronym
                       General Support Systems 1
    1   Audit Trail System                                                    ATS

    2   Comprehensive Integrity Review Process                                CIRP

    3   Death Alert Control and Update System                                 DACUS

    4   Debt Management System                                                DMS
        Enterprise Wide Mainframe & Distributed Network
    5                                                                         EWANS
        Telecommunications Services and System
    6   FALCON Data Entry System                                              FALCON

    7   Human Resources Management Information System                         HRMIS

    8   Integrated Client Database System                                     ICDB

    9   Integrated Disability Management System                               IDMS

10      Quality System                                                        QA

11      Security Management Access Control System                             SMACS

12      Social Security Online Accounting & Reporting System                  SSOARS

13      Social Security Unified Measurement System                            SUMS

                             Major Applications 2
    1   Electronic Disability System                                          eDib


1
  Office of Management and Budget Circular A-130, Appendix III, Security of Federal Automated
Information Resources, Section A.2.c, defines a “general support system” or “system” as an
interconnected set of information resources under the same direct management control which shares
common functionality.
2
  Office of Management and Budget Circular A-130, Appendix III, Security of Federal Automated
Information Resources, Section A.2.d, defines a “major application” as an application that requires special
attention to security due to the risk and magnitude of the harm resulting from the loss, misuse, or
unauthorized access to or modification of the information in the application.




                                                   D-1
                            System                                       Acronym
2   Earnings Record Maintenance System                              ERMS

3   National Investigative Case Management System                   NICMS

4   Recovery of Overpayments, Accounting and Reporting System       ROAR

5   Retirement, Survivors, Disability Insurance Accounting System   RSDI ACCTNG

6   Supplemental Security Income Record Maintenance System          SSIRMS

7   Social Security Number Establishment and Correction System      SSNECS
8   Title II                                                        T2




                                            D-2
                                                                         Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Brian Karpe, Director, Information Technology Audit Division
   Grace Chi, Audit Manager
Acknowledgments
In addition to those named above:

   Michael Zimmerman, Auditor- in-Charge
   Tina Nevels, Auditor-in-Charge
   Asad Isfahani, Auditor

For additional copies of this report, please visit our Website at http://oig.ssa.gov/ or
contact the Office of the Inspector General’s Public Affairs Staff at (410) 965-4518.
Refer to Common Identification Number A-14-12-12120.
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
